                  Department of the Interior
                  Office of Inspector General




SNPLMA – A
Model for Success
9 Land Use Partnerships
   Are Working
9 Public Land Auctions
   Enhance Receipts
9 Businesslike Approach
   Controls SNPLMA
   Receipts
9 Receipts Improve
   Education,
   Recreation, and
   Environment




     Implementation of the Southern
Nevada Public Land Management Act
 (SNPLMA) Bureau of Land Management

No. 2003-I-0065                        September 2003
Description of Photographs – Top to Bottom

    View of Las Vegas - Photo Courtesy Web Site – Las Vegas Convention and
       Visitors Authority
    Federal and Private Land Conveyed to Red Rock Canyon National
       Conservation Area under SNPLMA - Photo Courtesy of BLM
    Lake Mead National Recreation Area - Photo Courtesy of National Park Service
                  United States Department of the Interior

                                   Office of Inspector General
                                        Western Region
                                            Federal Building
                                     2800 Cottage Way, Suite E-2712
                                        Sacramento, California 95825



                                                                       September 30, 2003
                                                                                    7430

Memorandum

To:            Director, Bureau of Land Management

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Final Audit Report on Bureau of Land Management Implementation of the
               Southern Nevada Public Land Management Act (Report No. 2003-I-0065)

        The attached report presents the results of our review of the Bureau of Land
Management’s (BLM) implementation of the Southern Nevada Public Land Management
Act (SNPLMA). SNPLMA was enacted in 1998 to allow BLM to dispose of public land
in southern Nevada through public auction and to use the receipts for education and
environmental purposes and capital improvements in the State of Nevada. Our objective
was to review certain operational aspects of the SNPLMA Project Office since its
inception, including its management of the land sale program; its efforts to monitor and
preserve BLM’s interest in land transferred to Clark County, Nevada; and its
administration of receipts and disbursements from the special U.S. Treasury account
authorized by SNPLMA. Please see the appendix to the attached report for a summary of
our audit scope and methodology.

       We undertook our review because of news articles and inquiries from individuals
who were concerned about Clark County’s use of lands transferred under SNPLMA and
the County’s acceptance of the best offer in lieu of a higher offer for some of the lands
exchanged. Our General Counsel concluded that under Nevada statutes it was legally
defensible for Clark County to accept either the highest offer or an offer that allowed the
County to meet its priority of limiting incompatible development near the airport.

        We are pleased to report that BLM has made great strides in implementing
SNPLMA. Specifically, BLM has established a SNPLMA Project Office; formed good
working relationships with the federal, state, and local governmental agencies necessary
to implement SNPLMA; transferred about 5,200 acres of public land to Clark County’s
Department of Aviation; implemented a successful land sales program; and established a
special U.S. Treasury account to manage land sales and other SNPLMA receipts.
        The success of the land sales program confirms the value of using competitive
sales to let the market place set the price of the land to be sold. Partnerships with local
government agencies to nominate federal lands to be sold contributed to BLM’s success
because only lands desired for development were offered for sale. In addition, BLM
officials acknowledged that a volatile real estate market with more bidders than land,
such as the market in the Las Vegas Valley, significantly contributed to the success of the
program. We believe that selling federal land through public auctions, as advocated in
SNPLMA, expedites the disposal of federal lands and provides full and open competition
to the private sector, thereby generating the greatest monetary return to the taxpayer (see
following tabulation).


                                                                                                Estimated
                                               Appraised               Estimated           Receipts In Excess Of
          Acres Offered         Acres             Value              Sale Receipts           Appraised Value
            for Sale            Sold           ($ million)            ($ million*)              ($ million)

               3,951            3,897            $222.9                  $333.4                      $110.5


           * As of March 31, 2003, collections totaled $189.6 million. An additional $143.8 million is scheduled for
             collection by July 31, 2003. Receipts do not include results of June 5, 2003 sales.


        We found that BLM has developed and maintained good controls both to account
for and disburse the receipts derived primarily from the sale of federal land. We noted,
however, that the Project Office needed to improve its controls over administrative
expenses, such as salaries, and believe that BLM’s Nevada State Office should exercise
stringent oversight over these expenses. While the instances and amounts of questionable
charges we tested during fiscal year 2002 were relatively small, we are concerned that the
growing balance in the special U.S. Treasury account and the expansion of the SNPLMA
program by recently passed legislation may increase the risk of abuse. For example,
within the near future, the Project Office will gross in excess of $1 billion from federal
land sales and other receipts related to the use of land transferred to Clark County’s
Department of Aviation. We believe that such large sums could represent a serious
temptation for BLM managers to use part of these monies to supplement their budgets.
We discussed our concerns with BLM’s State Director and Associate State Director for
Nevada, who agreed that effective fund control would be implemented and enforced by a
Project Office business manager reporting directly to the Nevada State Office.

       We also advised that the Project Office should finalize an enforceable operating
agreement with Clark County’s Department of Aviation to delineate respective
responsibilities for complying with SNPLMA provisions regarding the disposition of the
5,200 acres of land.
       The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, actions taken to
implement our audit recommendations, and recommendations that have not been
implemented. We especially appreciate the cooperation shown by BLM staff during our
review. A response to this report is not required. However, if you have any questions
regarding the report, please call me at (916) 978-5653.

Attachment

cc: Audit Liaison Officer, Bureau of Land Management (MS 1000 L Street)
Southern        Las Vegas, one of the fastest growing cities in the United
Nevada Public   States, is landlocked by federal lands. Over the past
Land            decade, the population has increased by more than 60,000
                people per year. To accommodate this rapid growth and
Management      expedite the disposal of federal land, Congress enacted
Act             SNPLMA in 1998 (Public Law 105-263, 31 USC 6901).

                SNPLMA allows BLM to sell federal land (about 27,000
                acres) primarily through public auctions, establish a special
                U.S. Treasury interest-bearing account, and use the
                resulting receipts for educational and environmental
                purposes and capital improvements. In addition, SNPLMA
                directed BLM to transfer ownership of about 5,200 acres of
                land in the McCarran Airport Cooperative Management
                Area (CMA) to Clark County to help the County enforce
                regulations concerning airport noise within the CMA.
                BLM is entitled to 85 percent of any receipts from the sale,
                lease, or other conveyance of CMA lands.

                As of March 31, 2003, SNPLMA has generated
                $262.8 million.1 By July 31, 2003, an additional
                $143.8 million representing final payments from the
                November 2002 live auction and the January 2003 Internet
                auction is scheduled to be collected. By July 31, 2003,
                SNPLMA will have generated at least $406.6 million (see
                Figure 1).


                                           SNPLMA Receipts (Cumulative)
                                    450
                                    400                                                     406.6
                                    350
                    $ in Millions




                                    300
                                    250                                        262.8
                                    200
                                                                   180.7
                                    150
                                    100                 95.6
                                     50
                                              30.4
                                      0
                                          FY 00      FY 01     FY 02       FY 03         Future
                                                                       (Thru 3/31/03)   Receipts


                                                                                        Figure 1
                1
                 The $262.8 million comprises the following: $189,577,161 from live and
                Internet auctions; $8,229,540 from direct land sales; $48,308,917 from the use
                of CMA lands; $5,691,053 from interest earnings; and $10,987,676 from land
                exchanges, mineral conveyances, and forfeitures.
Under SNPLMA, state and local governments get “first
pick” of available land for public purposes, and BLM and
the applicable unit of local government jointly select the
lands to be offered for sale. SNPLMA provides an
opportunity for anyone, not just select private parties with a
successful track record for completing land exchanges with
federal agencies, to purchase federal land and lets the
market place set the price of the land to be sold through
competitive sales. It allows BLM to privatize federal land
around the Las Vegas Valley to facilitate community
growth.




    Typical federal land being sold to private parties under SNPLMA
                                                            OIG Photo

Selling federal lands (primarily by auction) has generated
$197.8 million of the $262.8 million. Receipts from land
sales are distributed as follows: 5 percent to the State of
Nevada for use in general education, 10 percent to the
Southern Nevada Water Authority, and 85 percent to a
special U.S. Treasury account that is managed by BLM’s
national business center. The distribution of land sales
receipts as of March 31, 2003, is shown in Figure 2.2




2
 As of March 31, 2003, distributions to the State of Nevada and Water
Authority were less than the required 5 percent and 10 percent because of
timing differences related to collecting the remaining receipts from the
November 2002 and the January 2003 land sales. BLM typically makes the
required distributions after all land sales receipts have been collected.


                   2
                           Distribution of Land Sales Receipts ($197.8 million)

                          70

                          60                                          State of Nevada




    Dollars in Millions
                                                                       ($8.1 million)
                          50

                          40
                                                                      Water Authority
                          30                                           ($16.2 million)

                          20
                                                                      SNPLMA Account
                          10
                                                                      ($173.5 million)
                           0
                               FY2000       FY2001 FY2002   FY2003


                                                                        Figure 2
With the Secretary’s approval, receipts deposited into the
special U.S. Treasury account can be used for the
following:

                  ¾ To purchase environmentally sensitive lands in the
                    State of Nevada.

                  ¾ To pay for capital improvements at the Lake Mead
                    National Recreation Area; the Desert National
                    Wildlife Refuge; the Red Rock Canyon National
                    Conservation Area; and other areas administered by
                    BLM in Clark County, including parks, trails, and
                    natural areas.

                  ¾ To develop a multi-species habitat conservation
                    plan.

Of the reported $220.5 million3 deposited in the special
U.S. Treasury account, $23 million has been expended and
$85.2 million obligated or set aside to pay for land, capital
improvements, and habitat conservation plans; $6 million
has been expended for administrative expenses; and
$5.8 million has been reserved for acquiring environmental
lands at Lake Tahoe. The remaining $100.5 million is
available to be expended in accordance with SNPLMA.




3
 Of the $262.8 million generated by all of SNPLMA’s funding sources, about
$14.1 million was distributed to the State of Nevada, $23.4 million was
distributed to the State’s Water Authority, and an additional $4.8 million was
retained by Clark County’s Department of Aviation. The remaining
$220.5 million was deposited in the special U.S. Treasury account.


                                        3
BLM Doing      Although more work remains to be done, BLM has done a
               good job of implementing SNPLMA in a businesslike
Good Job in    manner. It has established a Project Office; forged
Implementing   effective partnerships with federal, state, and local
SNPLMA but     governmental agencies; implemented a successful land
               sales program validating the competitive sales approach;
Controls       transferred 5,200 acres of federal land to Clark County’s
Needed in      Department of Aviation in a timely manner; and established
Some Areas     and effectively administered a special U.S. Treasury
               account. We noted, however, that the Project Office needs
               assistance from the Nevada State Office in controlling
               inappropriate assessments for operational or administrative
               expenses, such as salaries, against the special U.S. Treasury
               account. The Project Office also needs to finalize an
               operating agreement with Clark County’s Department of
               Aviation, which delineates respective responsibilities for
               complying with SNPLMA provisions.

               SNPLMA’s Project Office and BLM’s national business
               center have worked together to develop and maintain good
               controls in accounting for and disbursing the receipts
               derived from federal land sales. The business center’s
               senior operations accountant worked with SNPLMA’s
               business manager, certified collection officers, realty
               specialists, General Services Administration personnel, and
               BLM law enforcement rangers to provide good
               accountability over sales receipts, disbursements for
               program purposes, and interest earned from SNPLMA
               receipts.

 Success of    The success of the land sales program established by the
               Project Office validates a competitive approach as the best
 Land Sale
               means of disposing of federal land. Thus far, the program,
 Program       which lets the market place set the price of land through
 Validates     live or online Internet auctions, has garnered about
 Competitive   $333 million for the federal land sold.4 From November
 Sales         1999 through March 31, 2003, the Project Office, in
 Approach      coordination with the General Services Administration,
               completed seven live and five online auctions. In many

               4
                There is a delay in collecting the total sale price from the winning bidder, who
               conveys 20 percent of the sale price to BLM on the date of the auction and pays
               the remaining 80 percent within 6 months. If the bidder defaults on the
               payment, BLM retains the deposited funds and resells the land. As of
               March 31, 2003, $189,577,161 has been collected, an additional $127,280,000
               is in escrow, and the remaining $16,530,450 should be collected by July 31,
               2003.


                                  4
               cases, the highest bid for a parcel of land exceeded its
               appraised value. BLM records indicated that the appraised
               value of the 3,8975 acres sold was $223 million, yet the
               acres sold for $333 million or $110 million over their
               appraised value (see following table).

   Auction             Acres                   Appraised                                       Amount over
    Date*              Sold                     Value                     Sales Price         Appraised Value
    Nov 99              105                 $7,855,500                $9,478,500                $1,623,000
    Jun 00             110.16               13,812,500                15,079,000                 1,266,500
    Nov 00             198.05               18,742,500                20,807,000                 2,064,500
    May 01            2,015.50              53,013,000                62,170,501                 9,157,501
    Nov 01             131.20               10,665,000                14,326,110                 3,661,110
    Jul 02              210                 22,382,500                31,610,000                 9,227,500
    Nov 02            1,127.50              96,431,450               179,916,500                83,485,050
    Totals:           3,897.41             $222,902,450              $333,387,611              $110,485,161
* The totals for each auction date incorporate the sales totals for follow-up
Internet auctions.

               BLM officials told us that the partnerships established with
               local agencies to nominate land for sale have reduced the
               risk of trying to sell lands that are not desirable. BLM
               officials also acknowledged that the success of the land
               sales program is due to the high demand for federal land in
               an upward spiraling, volatile real estate market with more
               bidders than land. Receipts from each auction exceeded
               appraised values, and the November 2002 auction alone
               exceeded appraised values by almost 90 percent (see
               Figure 3):

                                                        % Over Appraised Value


                                         100
                                          90
                                          80
                                          70
                                          60
                               Percent




                                          50
                                          40
                                          30
                                          20
                                          10
                                           0
                                                 9




                                                              0




                                                                             1




                                                                                          2
                                                                                   02
                                                       00




                                                                      1
                                               v9




                                                            v0




                                                                           v0




                                                                                        v0
                                                                    y0




                                                                                    l
                                                        n




                                                                                 Ju
                                           No




                                                            No




                                                                          No




                                                                                        No
                                                                  Ma
                                                     Ju




                                                                 Auctions


                                                                                         Figure 3
               5
                   Of the 3,951 acres offered for sale, 3,897 acres have been sold.




                                           5
                    BLM’s emphasis on customer service also contributed to
                    the success of the land sales program. For example, BLM
                    designed Web pages and pamphlets to keep its customers
                    and prospective bidders informed of critical land sale
                    information, such as general auction procedures, terms of
                    sale, eligibility of bidders, procedures for bidding, and
                    daily bidding results for online auctions.

                    We believe that the success of the land sales program
                    confirms the value of the competitive sales approach
                    advocated by proponents of SNPLMA in disposing of
                    federal land and generating the greatest return to the
                    taxpayer. To illustrate, in the November 2002 live and
                    follow-up Internet auctions, BLM sold 1,127.50 acres of
                    land for about $180 million to 26 private parties. The
                    appraised value of the land was about $96 million. One
                    investor group alone purchased 992.5 acres of land in three
                    separate transactions for $159.1 million. Appraised value
                    of the acres was about $81.8 million.

                    The competitive sales approach contrasts sharply with
                    previous BLM practices of disposing of federal land
                    primarily through exchanges to select groups and using
                    appraisals to establish the market value of the lands to be
                    exchanged. Past General Accounting Office (GAO) and
                    Office of Inspector General reports have criticized this
                    method and questioned whether the appraisals resulted in
                    lands being conveyed at lower values than those established
                    by competitive sales. To illustrate, GAO’s report BLM and
                    the Forest Service, Land Exchanges Need to Reflect
                    Appropriate Value and Serve the Public Interest (No.
                    RCED-00-73), issued in June 2000, stated that BLM had
                    given more than fair market value for land it acquired and
                    received less than fair market value for public land it
                    conveyed because the appraisals used to estimate land
                    values did not always meet federal standards. Under
                    SNPLMA the highest bidder in an auction establishes the
                    price of federal land to be sold.

Partnerships with   BLM has developed effective partnerships with local
Local               governments to jointly select the lands to be sold, and sales
                    have progressed smoothly. These partnerships have also
Governments         assisted BLM in conveying public land needed for local
Working             public use. Under SNPLMA and the Recreation and Public
                    Purposes Act (43 USC 869 et. seq.), BLM can convey
                    federal lands to local governments at low or no cost for



                                  6
                 public use. BLM has worked with local governments, such
                 as school and library districts, to give them an opportunity
                 to select lands needed for such use before the land is sold,
                 thereby demonstrating a commitment to the needs of the
                 local communities. BLM reported that it has provided
                 2,256 acres of land to local governments since passage of
                 SNPLMA.




                       Federal and private land conveyed to the Red Rock Canyon National
                                                       Conservation Area under SNPLMA
                                           Photo Courtesy of Photographer Chris Ross, BLM

Magnitude of     The success of the land sales program mandates strict
                 oversight and controls over funds disbursed for
Land Sales       administrative salaries and other administrative expenses
and of Other     incurred to implement SNPLMA.6 We expect that in the
Receipts         next 2 to 3 years, the Project Office will likely gross in
Highlights the   excess of $1 billion from federal land sales and receipts
Need for         related to the use of CMA lands. Our expectation is based
Improved         on the recent passage of the Clark County Conservation of
                 Public Land and Natural Resources Act (Public Law
Controls         107-282), which expanded the SNPLMA disposal
                 boundary by an estimated 20,000 acres and increased, to
                 about 43,000 acres, the amount of federal land remaining to
                 be disposed of. In addition, the average sales price for each
                 acre sold has exceeded $85,000 per acre. Because of the

                 6
                  Under SNPLMA, BLM can expend program receipts for arranging and
                 administering federal land sales, completing land exchanges, and paying the
                 administrative costs of implementing SNPLMA. Senate Report 106-99 defined
                 administrative costs as those necessary to establish and administer the Special
                 Account, transfer CMA lands to Clark County, develop implementation
                 procedures, and consult with legal counsel.


                                   7
growing balance in the special U.S. Treasury account and
the expansion of the SNPLMA program, we believe that
the Nevada State Office must provide stringent oversight
for the disbursement of funds for Project Office expenses,
particularly administrative salaries and costs.

We found, however, that BLM’s Las Vegas Field Office7
was inappropriately charging Field Office employee
salaries to the Project Office even though the employees
did not work on Project Office activities to the extent that
they charged their salaries to Project Office activities.
While we did not identify the full extent of these
inappropriate assessments, the following cases illustrate our
concerns.

    ¾ A Las Vegas Field Office realty specialist was told
      by her supervisor to charge all work time to Project
      Office work codes for the remaining 5 months of
      fiscal year 2002, even though the specialist spent
      only about 1 month of her time working on Project
      Office related activities during that time. In
      response to our questions, a Las Vegas Field Office
      official stated that funding for the realty specialist
      would be fully expended before the end of the fiscal
      year and that it was necessary to charge her time to
      the Project Office activities.

    ¾ About $85,000 of the Las Vegas Field Office
      manager’s salary was paid for by SNPLMA receipts
      in 2002. Yet, in 2001, none of the salary was paid
      for by SNPLMA receipts. The manager stated that
      he worked on Project Office activities in both years
      but acknowledged that records were not routinely
      kept to support these charges.

A business manager hired in 1999 to oversee the financial
activities of the SNPLMA program and the Project Office
was not given authority to disallow erroneous or improper
salary or other administrative charges assessed against
SNPLMA funds. An internal memorandum prepared by
the Nevada State Director’s office authorizing such fund
control for the manager was never implemented. We
discussed our concerns with the State Director and the
Associate State Director for Nevada, who agreed to

7
 At the time of our review, the Las Vegas Field Office was co-located with the
Project Office.


                  8
                 implement stringent fund controls and assured us that the
                 business manager would have this control. They also told
                 us that while most Project Office activities would fall under
                 the jurisdiction of the Las Vegas Field Office, the Project
                 Office’s business manager would report to the Nevada
                 State Office.

CMA Transfer     In addition to providing for the sale of public land, Section
Completed, But   4(g) of SNPLMA directed BLM to transfer ownership of
                 about 5,200 acres of land in the McCarran Airport
Operating
                 Cooperative Management Area (CMA) to Clark County,
Agreement        Nevada. On March 30, 1999, 6 months after passage of
Should Be        SNPLMA, BLM transferred ownership of these acres.
Finalized        Clark County designated the County’s Department of
                 Aviation as the lead agency in administering, managing,
                 and disposing of CMA lands. As of March 31, 2003, the
                 Department of Aviation had reported collections of
                 $48.3 million8 from CMA lands (Figure 4).

                                                    CMA Revenues ($48.3 million)

                                           60


                                           50
                     Dollars in Millions




                                           40


                                           30

                                           20


                                           10

                                           0
                                              99



                                              00

                                              00

                                              00



                                              01

                                              01

                                              01



                                              02

                                              02

                                              02
                                               9




                                               0




                                               1




                                               2
                                             /9




                                             /0




                                             /0




                                             /0
                                            9/



                                            3/

                                            6/

                                            9/



                                            3/

                                            6/

                                            9/



                                            3/

                                            6/

                                            9/
                                           12




                                           12




                                           12




                                           12



                                                           Quarter Ending Dates



                                                                                   Figure 4

                 Under SNPLMA, the County remits to BLM 85 percent of
                 any proceeds derived from the sale, lease, or other
                 conveyance of CMA lands, such as land exchanges. The
                 State of Nevada receives 5 percent for educational
                 purposes, and the Department of Aviation retains the
                 remaining 10 percent. Since March 1999, the County has
                 completed 31 land exchanges, in which it disposed of about


                 8
                  Proceeds were derived from the cash payments required to equalize the values
                 of exchanged lands and from the sale and lease of other CMA lands.


                                                9
900 acres and acquired 513 acres within the CMA, and has
correctly remitted the proper funds to BLM (Figure 5).

                              Distribution of CMA Receipts ($48.3 million)


                         16
                         14




   Dollars in Millions
                         12
                                                                    State of Nevada
                         10                                          ($2.4 million)
                         8
                                                                    Dept. of Aviation
                         6
                                                                     ($4.8 million)
                         4
                         2                                          SNPLMA Account
                                                                     ($41.1 million)
                         0
                              FY2000   FY2001   FY2002   FY2003


                                                                        Figure 5
We also believe that BLM and the Department of Aviation
should finalize an enforceable operating agreement that
they have been negotiating since December 2001 to
delineate their respective responsibilities for complying
with SNPLMA provisions regarding CMA lands. It makes
good business sense to finalize this agreement, which we
believe should address, at a minimum, submissions of
County financial reports, provisions for updated land maps,
conduct of County audits, exchanges that include land
outside CMA boundaries, legal notices, modifications and
amendments, and mediation of disputes. Both BLM and
the County agreed that the agreement should be finalized.

A December 2000 publication (Property Disposal Program
for Cooperative Management Area (CMA) Properties)
addressed the sale, lease, or exchange of CMA lands; listed
the general location of desired land acquisitions; and stated
that exchanges reducing residential development within the
CMA area would be the County’s highest priority. We
found the County had generally identified the land acquired
through the exchanges in its December 2000 publication.




                                 10
Appendix
Scope and Methodology

              Our review included BLM activities related to
              implementing SNPLMA from its enactment in 1998
              through March 2003 and selected activities related to the
              disposition of CMA lands managed by Clark County’s
              Department of Aviation. We conducted our review at
              BLM’s Las Vegas Field Office and the McCarran Airport
              in Las Vegas, Nevada.

              We undertook our review, in part, because of news articles
              and inquiries from concerned individuals who questioned
              the County’s use of land exchanges and its acceptance of
              the best offer in lieu of a higher offer for some of the lands
              exchanged. We addressed these issues during our review.
              Our Office of General Counsel concluded that Nevada
              statutes provided authority for the exchanges and that it
              was legally defensible for Clark County to accept either the
              highest offer or an offer that allowed the County to meet its
              priority of limiting incompatible development near the
              airport.

              We conducted our review, as applicable, in accordance
              with the Government Auditing Standards issued by the
              Comptroller General of the United States. Accordingly, we
              included such tests of records and other auditing procedures
              that we considered necessary under the circumstances. To
              accomplish our objective, we reviewed (1) applicable
              federal laws, including Nevada statutes, (2) Congressional
              briefings and testimony, (3) BLM policies and procedures
              for implementing provisions of SNPLMA, (4) Clark
              County Department of Aviation planning documents, maps,
              and Land Trade Analysis that depicted the scope of County
              land exchanges, (5) news articles and written complaints
              questioning Clark County’s land exchanges within the
              CMA, (6) Project Office budgets, receipts, and expenditure
              documents, and (7) correspondence and other documents
              maintained at the Project Office to identify key actions and
              decisions of BLM and Airport officials concerning the
              implementation of all provisions of SNPLMA.

              As part of our review, we evaluated BLM’s system of
              internal controls related to implementing provisions of


                            11
SNPLMA and controls related to accounting for disbursing
receipts to the extent we considered necessary to
accomplish our audit objective. In this regard, we
expanded on our previous review, the results of which are
included in our “Advisory Letter” of June 5, 2001 (see
Prior Audit Coverage). In our current review, we validated
that Project Office managers maintained the same internal
controls over receipts and disbursements or had improved
on them. Since the previous review, we noted that the
Project Office had sought additional help from BLM’s
national business center regarding investing, controlling,
and accounting for SNPLMA receipts. We also noted that
the Project Office had issued standard operating procedures
for the auctions, which included delineating specific roles
and responsibilities for BLM staff, including staff of
BLM’s national business center.

Although we validated that the Project Office had
maintained or improved internal controls over receipts and
disbursements, we found a minor weakness relating to fund
control, which is discussed in the “Magnitude of Land
Sales and of Other Receipts Highlights the Need for
Improved Controls” section of this report. Based on
discussions with BLM State and Associate State Directors
for Nevada, we did not issue any recommendation in this
regard.

We also reviewed Department of the Interior Reports on
Accountability for fiscal years 2001 and 2002, which
included information required by the Federal Manager’s
Financial Integrity Act of 1982, and BLM’s annual
assurance statements on management controls for fiscal
years 2001 and 2002. We determined that no material
weaknesses directly relating to the objective of our review
were reported.

As part of our review, we also evaluated whether BLM
included SNPLMA activities when reporting to Congress
under the Government Performance and Results Act of
1993 (GPRA) (Public Law 103-62). GPRA requires that
each federal department and agency prepare annual
performance reports comparing planned accomplishments
for mission-related activities with results actually achieved.
BLM’s Annual Performance Plans for fiscal years 2002 and
2003, which include BLM’s Annual Performance Reports
for fiscal years 2000 and 2001, discussed SNPLMA land



              12
              sales activities under the GPRA program activity: “Provide
              Economic and Technical Assistance,” (Long-Term Goals
              01.06.03 and 01.06.04). BLM reported that it had
              accomplished the disposal of 345,902 acres of federal land
              outside the State of Alaska in support of local community
              and state economic needs. Although BLM identified
              SNPLMA land sale activities as one of the most innovative
              land conveyance authorities, BLM did not specifically
              identify or compare SNPLMA’s planned accomplishments
              with the results of its land sale activities (3,897 acres sold).
              Given that the results of SNPLMA land sale activities
              comprised only a small portion of BLM’s reported land
              disposal activities, we agree that BLM should not
              specifically identify goals and measures for SNPLMA land
              sale activities. In addition, we noted that BLM had
              developed a strategic plan to implement SNPLMA and
              produced a fiscal year 2002 Annual Performance Plan
              including program goals, which were compared with
              SNPLMA accomplishments.

Prior Audit   The Office of Inspector General issued one Memorandum
              Advisory Letter since SNPLMA’s inception in 1998. Our
Coverage      review was conducted in September and October of 2000 at
              the request of BLM to evaluate BLM controls over receipts
              and disbursement of funds derived from land sales
              authorized by SNPLMA. We concluded that the Project
              Office had established sufficient internal controls over
              receipts and disbursements. We noted a minor weakness in
              the separation of duties over cash deposits and
              reconciliations with the Department’s collection and billing
              system, which was resolved prior to issuance of our
              Advisory Letter on June 5, 2001.




                            13
How to Report Fraud, Waste, Abuse, and
Mismanagement
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and
abuse related to Departmental or Insular Area programs and
operations. You can report allegations to us as follows:

     Mail:      U.S. Department of the Interior
                Office of Inspector General
                Mail Stop 5341-MIB
                1849 C Street, NW
                Washington, D.C. 20240

    Phone:      24-Hour Toll Free           (800) 424-5081
                Washington Metro Area       (202) 208-5300
                Hearing Impaired            (202)-208-2420
                Fax                         (202) 208-6081

    Internet: www.oig.doi.gov/hotline_form.html

                  U.S. Department of the Interior
                   Office of Inspector General
                        1849 C Street, NW
                    Washington, D.C. 20240
                          www.doi.gov
                         www.oig.doi.gov
